• .1

No.
.i.

IN THE
SUPREME COURT OF THE UNITED STATES

PROBIR KUMAR BONDYOPADHYAY

PETITIONER

VS.
UNITED STATES OF AMERICA — RESPONDENT
PROOF OF SERVICE
I, PROBIR KUMAR BONDYOPADHYAY, do swear or declare that on this
date, August 15, 2021, as required by Supreme Court Rule 29 I have served
the enclosed PETITION FOR A WRIT OF CERTIORARI on the U.S. Solicitor
General by depositing an envelope containing the above documents in the
United States Express Mail properly addressed to the U.S. Solicitor General
with Express Mail postage prepaid.
The name and address of the official served are as follows:
The Solicitor General of the United States, Room 5616, Department of
Justice, 950 Pennsylvania Ave., N.W., Washington, D. C. 20530-0001.
I declare under penalty of perjury that the foregoing is true and correct. Executed on
August 15,2021

(The Petitioner, Pro Se)

